(i or i)
Case: 19-35930, 11/19/2020, ID: 11898851, DktEntry: 16-1, Page 1 of 3

FILED

NOT FOR PUBLICATION

NOV 19 2020

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ERNEST H. BAKER III,

No.

Plaintiff-Appellant,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

19-35930

D.C. No. 2:17-cv-00272-MK

v.

MEMORANDUM*
OREGON DEPARTMENT OF
CORRECTIONS; STUART YOUNG,
Defendants-Appellees.
Appeal from the United States District Court
for the District of Oregon
Mustafa T. Kasubhai, Magistrate Judge, Presiding
Submitted November 17, 2020**
San Francisco, California
Before: O’ SCANNLAIN, TROTT, and N.R. SMITH, Circuit Judges.
Baker appeals from the district court’s grant of summary judgment in favor
of the Oregon Department of Corrections and Stuart Young on Baker’s First
Amendment claim, brough pursuant to 42 U.S.C. § 1983, and his Religious Land

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

{■z or t)

Case: 19-35930, 11/19/2020, ID: 11898851, DktEntry: 16-1, Page 2 of 3

Use and Institutionalized Persons Act claim. Because the facts are known to the
parties, we repeat them only as necessary to explain our decision.
I
The district court did not err in granting summary judgment on Baker’s
claims relating to the denial of his request for Passover meals.
A
The district court correctly concluded that Young is entitled to qualified
immunity on Baker’s First Amendment claim for monetary damages. Baker did
not have a clearly established right to receive special Passover meals under the
specific circumstances known to Young. The record supports the Magistrate
Judge’s finding that Young’s decision was based on Baker’s previous
identification as a Messianic, his documented attendance at Messianic religious
services, and his history of purchasing non-kosher foods from the prison’s canteen.
Under these circumstances, Young reasonably believed that providing Baker with a
modified kosher meal for Passover, as recommended by Messianic religious
experts, was compatible with his “Nazarene Israelite” religion and did not violate
his First Amendment rights. See Mullenix v. Luna, 577 U.S. 7, 11-12 (2015) (per
curiam).
B
The district court correctly concluded that Baker’s claim for prospective

2

(3 or ()
Case: 19-35930, 11/19/2020, ID: 11898851, DktEntry: 16-1, Page 3 of 3

relief is moot. Young’s reversal of his decision during the litigation means that
Baker will receive the special Passover meals that he requested. Accordingly, he
has obtained the relief that he sued to obtain, and there is no evidence that the
prison will deny him Passover meals in the future. See Friends of the Earth, Inc. v.
Laidlaw Envl. Servs. (TOC), Inc., 528 U.S. 167, 189 (2000).
II
The district court did not err in granting summary judgment on Baker’s
claim relating to his request for a kippa. The only evidence presented to the
district court was that Baker had ordered a kippa that was made available for
purchase, but never received it. These facts do not support an inference of
wrongful conduct by the prison. To the extent Baker now argues that the prison
denied his request for a “Bucharian” kippa, he did not provide any evidence
regarding this issue before the district court and he cannot do so for the first time
on appeal. See Lowry v. Barnhart, 329 F.3d 1019, 1024 (9th Cir. 2003).
Ill
The district court properly granted summary judgment on Baker’s claim
relating to the prison’s kosher food and drink offerings. Baker did not allege that
any of the shortcomings in the prison’s kosher diet program caused him to violate
his religious beliefs. See Shakur v. Schriro, 514 F.3d 878, 885 (9th Cir. 2008).
AFFIRMED.

3

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
NOV 12 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ERNEST H. BAKER III,
Plaintiff - Appellant,
v.
OREGON DEPARTMENT OF
CORRECTIONS and STUART
YOUNG,

No. 19-35930
D.C. No. 2:17-cv-00272-MK
U.S. District of Oregon, Pendleton
ORDER

Defendants - Appellees.

A review of the district court docket reflects that appellant was permitted to
proceed in forma pauperis in the district court, and that such permission has not
been revoked to date. Consequently, appellant's forma pauperis status continues in
this court. See .bed. R. App. P. 24(a). Pursuant to 28 U.S.C. § 1915(b)(1) and (2),
however, appellant must pay the full amount of the filing and docketing fees for
this appeal when funds are available in appellant's account. Appellant is not
responsible for payment when the funds in appellant's prison trust account total
less than $10, but payments must resume when additional deposits are made or
funds are otherwise available.

c

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JAN 26 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ERNEST H. BAKER III,

No.

Plaintiff-Appellant,
v.
OREGON DEPARTMENT OF
CORRECTIONS; STUART YOUNG,

19-35930

D.C. No. 2:17-cv-00272-MK
District of Oregon,
Pendleton
ORDER

Defendants-Appellees.
Before: O’SCANNLAIN and N.R. SMITH, Circuit Judges.
The panel has unanimously recommended denial of the petition for
rehearing en banc. Judge O’Scannlain and Judge N.R. Smith recommended denial
of the petition, as did Judge Trott prior to his retirement. The full court has been
advised of the petition for rehearing en banc, and no judge has requested a vote on
whether to rehear the matter en banc. Fed. R. App. P. 35.
The petition for rehearing en banc is DENIED.

M

Id

Case 2:17-cv-00272-MK

Document 99

Filed 09/17/19

Page 1 of 19

UNITED STATES DISTRICT COURT
DISTRICT OF OREGON

ERNEST BAKER,
Plaintiff,

Case No. 2:17-cv-00272-MK
OPINION AND ORDER

v.

(OREGON DEPARTMENT OF
CORRECTIONS) O.D.O.C., and STUART
YOUNG, Assistant Administrator of
Religious Services,
Defendants.
KASUBHAI, Magistrate Judge:
Plaintiff, an inmate at Eastern Oregon Correctional Institution (EOCI), filed suit under 42
U.S.C. § 1983 and alleged violations of his right to religious freedom under the First Amendment
and the Religious Land Use and Institutionalized Persons Act (RLUIPA). Defendants move for
summary judgment on grounds that they have accommodated plaintiffs religious requests and he
cannot establish a substantial burden on his religious beliefs or practices. For the following
reasons, defendants’ motion is granted.1

i

The parties have consented to jurisdiction and issuance of a final decision by a United
States Magistrate Judge. (ECF Nos. 7, 14)
1 — OPINION AND ORDER

Case 2:17-cv-00272-MK

Document 99

Filed 09/17/19

Page 2 of 19

DISCUSSION
Plaintiff alleges that defendants substantially burdened his religious beliefs - which he
initially characterized as “Israelite” - by precluding his participation in special Passover meals
and denying him kosher food and other items necessary to the practice of his religion. Compl. at
3 (ECF No. 2). Plaintiff maintains that in doing so, defendant Stuart Young, the Assistant
Administrator of Religious Services, held him to a “Rabbinical Standard” of Judaism that is
unrelated to plaintiffs beliefs as a “Natzarim Yisraelite” and “Orthodox Sephardic Jew.” Id. at 45; see also Pl.’s Resp. to Defs.’ Mot. Summ. J. (Pl.’s Resp.) at 5-6 (ECF No. 73); Young Decl.
Att. 16 (ECF No. 67).
The court previously granted summary judgment on several claims based on plaintiff s
failure to exhaust his administrative remedies.2 Remaining are plaintiffs claims that defendants
burdened his religious beliefs by: 1) denying special Passover meals; 2) denying or prohibiting
religious apparel; and 3) failing to provide adequate kosher food and drink options.3 To prevail
on their motions for summary judgment, defendants must show there is no genuine dispute as to
any material fact and they are entitled to judgment as a matter of law. Fed. R. Civ. P. 56(a);
Celotex Corp. v. Catrett, All U.S. 317, 323 (1986). The court must construe the evidence and

2 The court found that plaintiff was barred from raising claims that were not alleged in
Discrimination Complaint No. DC-EOCI-2016-01-055, which asserted the denial of kosher food
and items “such as a [tzit-tzit] & Bucharian Kippa & kosher vitamins, meats, cheeses & soaps,”
“drinks with [his] meals,” and special Passover meals. Young Decl. Att. 2 at 2-4, 64-65.
3 In his response, plaintiff presents additional arguments regarding defendants’ alleged
denial of sack lunches, festival pictures, a shofar horn, a trained chaplaincy, work assignments,
religious rest days, religious television channels, and a Mezuzah pendant. See Pl.’s Resp. at 3-4,
16. However, these claims were not included in DC-EOCI-2016-01-055 and are unexhausted.
Further, while DC-EOCI-2016-01-055 referenced the denial of participation in a 2011 “Day of
Atonement” festival, any RUILPA or § 1983 claim arising from this denial is barred by the
relevant four- and two-year statute of limitations, respectively. Pouncil v. Tilton, 704 F.3d 568,
573 (9th Cir. 2012); Sain v. City ofBend, 309 F.3d 1134, 1139 (9th Cir. 2002).
2 — OPINION AND ORDER

Case 2:17-cv-00272-MK

Document 99

Filed 09/17/19

Page 3 of 19

draw all reasonable inferences in the light most favorable to plaintiff. Torres v. City ofMadera,
648 F.3d 1119, 1123 (9th Cir. 2011).
A. Standards
To sustain his First Amendment claim, plaintiff must show that defendants burdened the
free exercise of his religion without any justification reasonably related to a legitimate
penological interest. See Shakur v. Schiro, 514 F.3d 878, 884 (9th Cir. 2008). To constitute an
impermissible burden, the government’s conduct must do more than “inconvenience” a religious
exercise; it “must have a tendency to coerce individuals into acting contrary to their religious
beliefs or exert substantial pressure on an adherent to modify his behavior and to violate his
beliefs.” Jones v. Williams, 791 F.3d 1023, 1031-32 (9th Cir. 2015) (citations omitted). An
inmate need not “objectively show that a central tenet of his faith is burdened,” because it is the
“sincerity of his belief rather than its centrality to his faith that is relevant to the free exercise
inquiry.” Shakur, 514 F.3d at 884. At the same time, the asserted belief must be “sincerely held”
and “rooted in religious belief’ rather than secular or philosophical concerns. Malik v. Brown, 16
F.3d 330, 333 (9th Cir. 1994) (citations omitted).
RLUIPA similarly prohibits prison officials from infringing on a prisoner’s religious
beliefs or practices. See Cutter v. Wilkinson, 544 U.S. 709, 721 (2005) (“RLUIPA thus protects
institutionalized persons who are unable freely to attend to their religious needs and are therefore
dependent on the government’s permission and accommodation for exercise of their religion.”).
To establish a RLUIPA claim, plaintiff must show that defendants imposed “a substantial burden
on [his] religious exercise.” 42 U.S.C. §§ 2000cc-l(a), 2000cc-2(b); Greene v. Solano Cnty. Jail,
513 F.3d 982, 988 (9th Cir. 2013) (finding that a prohibition against a religious exercise may
constitute a substantial burden). If plaintiff makes this showing, the burden then shifts to
3 — OPINION AND ORDER

Case 2:17-cv-00272-MK

Document 99

Filed 09/17/19

Page 4 of 19

defendants to prove that the burden imposed “serves a compelling government interest and is the
least restrictive means of achieving that interest.” Shakur, 514 F.3d at 889; 42 U.S.C. §§ 2000cc1(a), 2000cc-2(b).
B. Analysis
As the court held previously, defendants are entitled to summary judgment on plaintiffs
claims for money damages under RLUIPA. See ECF No. 38 at 11; see also Wood v. Yordy, 753
F.3d 899, 904 (9th Cir. 2014) (finding that “there is nothing in the language or structure of
RLUIPA to suggest that Congress contemplated liability of government employees in an
individual capacity”); Alvarez v. Hill, 667 F.3d 1061, 1063 (9th Cir. 2012) (noting that “money
damages under RLUIPA are not available against states because of their sovereign immunity”);
Holley v. Cal. Dep’t of Corr., 599 F.3d 1108, 1114 (9th Cir. 2010) (holding that “the Eleventh
Amendment bars Holley’s suit for official-capacity damages under RLUIPA”).
The Eleventh Amendment similarly bars § 1983 claims for money damages against
ODOC or Young in his official capacity. Will v. Mich. Dep't ofState Police, 491 U.S. 58, 65-66,
71 (1989). Thus, plaintiff may obtain only injunctive relief against the Oregon Department of
Corrections (ODOC) or money damages against Young in his individual capacity.
1. Passover Meals
Plaintiff alleges that beginning in 2016, ODOC and Young prohibited him from receiving
special Passover meals served to Jewish inmates.4 Plaintiff maintains that, while he does not

4 Plaintiff also alleges that he was denied a Seder plate with “matzah & bitter herb &
grape juice.” Compl. at 3. Plaintiff does not indicate when this denial occurred, and DC-EOCI2016-01-055 does not reference this claim. Regardless, given their similarity, any claim on this
ground is subject to the same analysis as plaintiffs claim for special Passover meals.
4 — OPINION AND ORDER

Case 2:17-cv-00272-MK

Document 99

Filed 09/17/19

Page 5 of 19

subscribe to “Rabbinical” standards of Judaism, he nonetheless “follows strict ‘Orthodox’ Jewish
standards” and is entitled to receive the same Passover meals. Pl.’s Resp. at 6.
On January 26, 2016, plaintiff received the following memorandum:
The ODOC process has changed for who is allowed to receive Kosher Passover
Meals. According to our Administration in Salem, only those who are of Jewish
faith will receive the Kosher 8 days of Passover meals.
Your request [for Passover meals] will be accommodated in the following way
this year.
You will continue to receive your regular Kosher diet meals. You will also be
given Matzo to supplement your dietary needs during this time.
Young Decl. Att. 2 at 65.
On January 27, 2016, plaintiff submitted a kyte to his chaplain expressing concern that
only inmates of Jewish faith would receive the special Passover meals. Id.

40 & Att. 15.

Although plaintiff had previously self-identified as being Messianic, he told the chaplain he was
an “Orthodox Jew” and requested the special Passover meals. Id.
On February 8, 2016, plaintiff provided a “DNA chart” and asserted that it established his
“Sephardic Jewish bloodline” as an “Orthodox Sephardic Jew.” Id. ^ 41 & Att. 16.
On February 19, 2016, Young advised plaintiff that Jewish lineage is confirmed when a
person’s mother is Jewish and asked plaintiff to provide his mother’s name, contact information,
and her synagogue so that ODOC could confirm his claim. Young Decl. f 43 & Att. 17. Young
further stated, “A review of your Religious Services participation records show[s] you are
participating in Torahmen which is a Messianic religious service.” Id. Att. 17. Young informed
plaintiff that ODOC had consulted with Messianic Rabbis concerning the Eight Days of
Passover, and they advised “that a vegetable/bean meal prepared in a kosher manner with matzo,
served on a paper tray with plastic utensils was acceptable based on Messianic tenets of faith
5 — OPINION AND ORDER

Case 2:17-cv-00272-MK

Document 99

Filed 09/17/19

Page 6 of 19

from the Torah.” Id. Young advised plaintiff that the special Passover meals were “designed for
strict adherence to a Jewish dietary law in which specific food items are removed from the
regular kosher diet” and that the meal he would be provided complied with his Messianic
affiliation. Id. f 42 & Att. 17. Young concluded by noting that plaintiff was “not prohibited from
observing the Eight Days of Passover meals and a Seder Meal as Messianic.” Id.
On April 3, 2016, plaintiff again asserted that he was an “Orthodox Jew” rather than a
Messianic Jew, while proclaiming that “all Israelites/Jews ARE Messianics.” Young Decl. 44
& Att. 18. Plaintiff also provided contact information for a synagogue his mother attended in
Ashland, Oregon. Id. Rabbi Avrohom Perlstein, an ODOC chaplain, spoke with Rabbi Zweibel
of the Ashland synagogue to confirm plaintiffs claim; Rabbi Zweibel stated that he had never
heard of plaintiff or his mother. Id. 145 & Atts. 19, 22.
On April 19, 2016, Young advised plaintiff that Rabbi Zweibel did not support his claim
to Jewish heritage, and plaintiff disputed the rabbi’s assertion. Id.

46-47 & Atts. 20-21.

In December 2016, plaintiff again raised the issue of Passover meals. Young informed
plaintiff that the matter would not be revisited. Id.

49-50 & Atts. 23-24.

In February 2019, ODOC informed plaintiff that he will receive the same Passover meals
served to Jewish inmates unless he asks to be removed from the Passover meals or engages in
behaviors - such as ordering non-kosher canteen items - that would make him ineligible to
receive such meals. Suppl. Young Decl. Tflf 4-5.
a. Injunctive and Declaratory Relief
Defendants argue that their agreement to provide plaintiff with special Passover meals
has eliminated any burden on his religious beliefs and renders his claims for declaratory and

6 — OPINION AND ORDER

Case 2:17-cv-00272-MK

Document 99

Filed 09/17/19

Page 7 of 19

injunctive relief moot.5 Defendants also cite RLUIPA’s safe harbor clause, which allows a
government entity to avoid liability “by retaining the policy or practice and exempting the
substantially burdened religious exercise, [or] by providing exemptions from the policy or
practice for applications that substantially burden religious exercise.” 42 U.S.C. § 2000cc-3(e);
see also Forter v. Geer, 868 F. Supp. 2d 1091, 1098 (D. Or. 2012) (finding prison officials’
cessation of challenged conduct barred recovery under RLUIPA), aff’d, 536 Fed. App’x 724 (9th
Cir. 2013).
Based on ODOC’s representation that plaintiff will receive the same Passover meals
served to Jewish inmates, he has obtained the relief he seeks and his claim for injunctive relief is
moot. See Already, LLC v. Nike, Inc., 568 U.S. 85, 91 (2013) (a case is moot “when the issues
presented are no longer ‘live’ or the parties lack a legally cognizable interest in the outcome”)
(citation omitted). Nonetheless, plaintiff argues that his claim is not moot, because defendants
are still forcing Plaintiff to follow Rabbinical Judaism guidelines when Plaintiff is
a Natzarim Yisraelite- NOT a Rabbinical Jew. Natzarim follow similar yet
differing food standards on Kosher and different Calendar Festival Days
sometimes within a months difference placing a substantial burden upon Plaintiff
by ODOC in making Plaintiff follow tenets of a belief and Rabbinical Standard
and Calendar Festival Days that are NOT even that of Plaintiff.
Pl.’s Suppl. Resp. at 3 (ECF No. 98).

5 Defendants also reassert the defense of failure to exhaust with respect to plaintiffs
Passover meal claim. The court previously found that plaintiff raised a question of fact regarding
exhaustion because defendants had not responded to a grievance and a grievance appeal shortly
before plaintiff was required to file a tort claim notice to preserve any potential tort claims.
Defendants emphasize that plaintiffs Passover claim arose on January 26, 2016, and the 180-day
tort notice deadline would not have run until July 25, 2016, more than one month after plaintiffs
notice of tort claim. Given that ODOC accepted plaintiffs Passover meal claim as part of ECEOCI-2016-01-055, Plaintiff could have reasonably believed the same timeline applied, and I am
not inclined to revisit this issue. Id. Att. 2 at 64.
7 — OPINION AND ORDER

Case 2:17-cv-00272-MK

Document 99

Filed 09/17/19

Page 8 of 19

However, the only claims at issue in this case are those raised in DC-EOCI-2016-01-055,
which does not assert that plaintiff is prohibited from observing “differing food standards” on
“different Calendar festival days.”6
Plaintiff also suggests that defendants could again deny him Passover meals if he does
not abide by their standards. Granted, “a defendant cannot automatically moot a case simply by
ending its unlawful conduct once sued.” Already, LLC, 568 U.S at 91. Rather, “a defendant
claiming that its voluntary compliance moots a case bears the formidable burden of showing that
it is absolutely clear the allegedly wrongful behavior could not reasonably be expected to recur.”
Friends of the Earth, Inc. v. Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S. 167, 190 (2000).
I find that defendants’ representations make it clear that plaintiff will not be denied
special Passover meals unless he either requests not to receive them or engages in conduct that
places the sincerity of his religious commitment at issue. To the extent plaintiff objects to the
conditions of his participation in Passover meals, his adherence to religious practices informs
defendants of the sincerity of his beliefs and does not dilute their commitment to provide
plaintiff with the accommodation he seeks. Further, defendants agreed to provide plaintiff with
the meals he requested prior to the beginning of Passover in 2019, and plaintiff has not presented
evidence that he was denied special Passover meals. Clark v. Chappell, 735 Fed. App’x 825, 826
(9th Cir. May 23, 2018) (affirming the dismissal of prisoner’s § 1983 claims for injunctive relief
“arising from the denial of Clark’s entry into a kosher diet program,” “because Clark is now a
member of the kosher diet program, rendering his claim moot”); Bilal v. Lehman, 2006 WL
3626808, at *4 (W.D. Wash. Dec. 8, 2006) (holding that a prison’s good-faith decision to

6 Notably, plaintiffs assertion that his “food standards on Kosher” differ from those of
“Rabbinical Judaism” seems to directly contradict his claim that he requires the same Passover
meals as Jewish inmates. Pl.’s Suppl. Resp. at 3.
8 — OPINION AND ORDER

Case 2:17-cv-00272-MK

Document 99

Filed 09/17/19

Page 9 of 19

provide a Muslim inmate with halal meals eliminated any burden on his religious beliefs and
mooted his First Amendment and RLUIPA claims).
Accordingly, ODOC’s decision to provide plaintiff with the same Passover meals served
to Jewish inmates renders his claims for declaratory and injunctive relief moot.
b. Money Damages
Plaintiff also seeks money damages against Young under § 1983. Defendants maintain
that Young did not burden plaintiffs religious beliefs, because he accommodated plaintiffs
requests for Passover meals based on plaintiffs stated religious affiliation and practices.
Alternatively, defendants argue that Young is entitled to qualified immunity.
It is questionable whether plaintiff has met his initial burden of showing that the denial of
special Passover meals imposed on substantial burden on his sincerely held religious beliefs.
Plaintiff does not identify what particular Passover foods he was denied or explain why the
meals he was given failed to conform to his beliefs and hindered his observance of Passover.
Even if plaintiff raises a genuine issue of fact as to whether Young substantially burdened his
religious beliefs, Young is entitled to qualified immunity.
“Qualified immunity attaches when an official’s conduct does not violate clearly
established statutory or constitutional rights of which a reasonable person would have known.”
White v. Pauly, 137 S. Ct. 548, 551 (2017) (per curiam). The Supreme Court has emphasized that
the asserted right “must be sufficiently clear that every reasonable official would have
understood that what he is doing violates that right.” Reichle v. Howards, 566 U.S. 658, 664
(2012) (brackets and internal quotation marks omitted).
To be clearly established, a legal principle must have a sufficiently clear
foundation in then-existing precedent. The rule must be “settled law,” which
means it is dictated by “controlling authority” or “a robust ‘consensus of cases of
persuasive authority[.]’” It is not enough that the rule is suggested by then9 — OPINION AND ORDER

Case 2:17-cv-00272-MK Document 99 Filed 09/17/19 Page 10 of 19

existing precedent. The precedent must be clear enough that every reasonable
official would interpret it to establish the particular rule the plaintiff seeks to
apply. Otherwise, the rule is not one that “every reasonable official” would know.
District of Columbia v. Wesby, 138 S. Ct. 577, 589-90 (2018) (citations omitted). In other words,
while qualified immunity does not require “a case directly on point, [] existing precedent must
have placed the statutory or constitutional question beyond debate.” Ashcroft v. al-Kidd, 563
U.S. 731,741 (2011).
Moreover, the Supreme Court has admonished lower courts, repeatedly, that “the clearly
established right must be defined with specificity.” City ofEscondido v. Emmons, 139 S. Ct. 500,
503 (2019) (per curiam); Kisela v. Hughes, 138 S. Ct. 1148, 1152 (2018) (noting that the Court
has ‘“repeatedly told courts - and the Ninth Circuit in particular - not to define clearly
established law at a high level of generality.’”) (citations omitted) (per curiam); Wesby, 138 S.
Ct. at 590 (“We have repeatedly stressed that courts must not ‘define clearly established law at a
high level of generality, since doing so avoids the crucial question whether the official acted
reasonably in the particular circumstances that he or she faced.’”) (citation omitted); White, 137
S. Ct. at 552 (“Today, it is again necessary to reiterate the longstanding principle that ‘clearly
established law’ should not be defined ‘at a high level of generality.’ As this Court explained
decades ago, the clearly established law must be “particularized” to the facts of the case.”)
(citation omitted); Mullenix v. Luna, 136 S. Ct. 305, 308 (2015) (per curiam); City & Cnty. of
San Francisco v. Sheehan, 135 S. Ct. 1765, 1775-76 (2015).
Thus, the question is not whether plaintiff had a clearly established right to the free
exercise of his religion or to meals consistent with his religious beliefs; rather, the question is
whether that right was clearly established in the particular circumstances known to Young. Based
on the evidence presented, a reasonable prison official would not have known that providing
10 — OPINION AND ORDER

Case 2:17-cv-00272-MK

Document 99

Filed 09/17/19

Page 11 of 19

plaintiff with a kosher meal, rather than the Passover meal provided to Jewish inmates, violated
his clearly established First Amendment rights.
Significantly, Young did not bar plaintiff from participating in annual Passover meals.
Instead, plaintiff received a kosher meal with vegetables and beans, along with matzo, in
accordance with the advice Young received from Messianic Rabbis. Young Decl.

42, 52.7

According to the information known to Young, plaintiff had previously self-identified as being
Messianic and attended “Torahmen” services, which are considered Messianic. Id.

52 & Att.

17. The record also reflects that plaintiff requested a “Messianic” kippah and tzit-tzit and had a
history of purchasing non-kosher food items from the canteen. Id. Att. 2 at 53 (April 2015 letter
noting that plaintiff had purchased canteen items “that do not conform to kosher requirements or
standards”), Att. 8 (January 2016 letter again noting plaintiffs purchase of non-kosher canteen
items), Att. 9 (a white “Kippah Messianic Head Covering” made available for purchase at
plaintiffs request), Att. 14 (a “Messianic” tzitzit made available for purchase at plaintiffs
request). Based on this information, Young consulted with Messianic Rabbis and accommodated
plaintiffs beliefs accordingly.
Although plaintiff disputed this accommodation, he did not explain why his sincerelyheld beliefs - though not “Rabbinical” - nonetheless required the same Passover meal served to
Jewish inmates. Instead, plaintiff asserted that he was “a Jew by birth on my mother’s side” and
relied on his “Sephardic Jewish blood-line.” Id. Atts. 15-16, 21, 23. Plaintiffs proclamations of
faith did not provide further clarity to his beliefs. See also Pl.’s Resp. at 13 (“Plaintiff ‘IS’ a

7 Although not alleged in his Complaint, plaintiff now asserts that he did not receive the
vegetable/bean Passover meal approved by Young. This claim was not included in DC-EOCI2016-01-055 and is not before the court. Moreover, plaintiff does not allege that Young was
personally involved in the failure to provide those meals.
11 — OPINION AND ORDER

Case 2:17-cv-00272-MK Document 99 Filed 09/17/19 Page 12 of 19

Messianic, but follows strict Orthodox standards being a ‘Natzarim.’ Plaintiff is an Orthodox
Jew who believes in Messiah; a Natzarim Yisraelite.”!. Plaintiff professed adherence to the
written Torah but not “the oral Talmud law” or the “Rabbinical Standards” of Judaism. Pl.’s
Resp. at 6 & Exs. at 69; Young Decl. Atts. 17, 23. Plaintiff also represented that he did “believe
in a coming Messiah. I believe strictly adhering to Torah as an Orthodox Jew ushers in the
Messianic kingdom and King...this ‘YES’ makes me a ‘Messianic,’ and I need certain items &
follow certain practices strictly following Torah & my belief of Messianism as an ‘Orthodox
Sephardic Jew’ in regard to my Messianic beliefs[.]” Young Decl. Att. 23 at 1-2.
Plaintiff nonetheless argues that Young’s rejection of plaintiffs perceived Jewish
heritage and his reliance on Rabbi Zweibel essentially implemented a policy of “making people
prove their race” to obtain special Passover meals. Pl.’s Resp. at 6. Granted, plaintiffs Jewish
heritage or lineage should not dictate his eligibility for religious accommodations, as the
sincerity of plaintiffs beliefs is paramount. Shakur, 514 F.3d at 884; Jackson v. Mann, 196 F.3d
316, 320 (2d Cir. 1999) (reliance on rabbi’s opinion to determine whether inmate was Jewish and
entitled to requested religious accommodations “erroneously substituted the objective ‘accuracy’
of Jackson’s assertion that he is Jewish for the correct test - whether Jackson’s beliefs are
‘sincerely held’”). In this case, however, the fact that Young apparently would have accepted
Jewish heritage as an alternative to Jewish faith or practices does not raise a genuine issue of
material fact. The record makes clear that plaintiffs eligibility for Passover meals was not
conditioned solely on confirmation of his matrilineal Jewish heritage. Rather, Young and other
ODOC officials relied on plaintiffs self-identification as a “Messianic” and his religious
practices when considering his request for special Passover meals. Young Decl. Att. 17; Pl.’s
Resp. Exs. at 69.
12 — OPINION AND ORDER

Case 2:17-cv-00272-MK

Document 99

Filed 09/17/19

Page 13 of 19

Plaintiff cites no case, and the court is aware of none, clearly establishing a First
Amendment right to Passover meals in these circumstances. See Barnes v. Furman, 629 Fed.
App’x 52, 54-55 (2d Cir. Oct. 22, 2015) (holding that a prison official “was not unreasonable” in
denying a prisoner kosher meals “because he was registered as Hebrew Israelite in accordance
with the prison policy limiting kosher meals to Jewish inmates”) (summary order); Piatnitsky v.
Stewart, 2019 WL 2233342, at *17 (W.D. Wash. Feb. 27, 2019) (“Because it was not clearly
established at the time of the violation that a policy granting Passover participation for only those
inmates who received kosher meals or attended religious services was unconstitutional, or that
defendants were required to provide plaintiff with Passover meals regardless of the policy,
defendants are entitled to qualified immunity against plaintiffs claims for damages.”), report
and recommendation adopted, 2019 WL 2224930 (W.D. Wash. May 23, 2019).
By plaintiffs own arguments to ODOC, Young made a mistake about the nature of
plaintiffs religious beliefs - precisely the type of conduct that is covered by qualified immunity.
See Young Decl. Att. 23 at 1 (stating that “DOC/Stuart Young is confusing ‘Messianic Judaism
and my beliefs as a Sephardic Orthodox Jew together and they are two completely different
religions/Beliefs!”). As noted by the Supreme Court, qualified immunity “gives government
officials breathing room to make reasonable but mistaken judgments about open legal questions.
When properly applied, it protects ‘all but the plainly incompetent or those who knowingly
violate the law.’” al-Kidd, 563 U.S. at 743 (internal quotation marks omitted). In the particular
circumstances of this case, Young was neither. Given plaintiffs representations and his religious
practices, Young reasonably — even if mistakenly - believed that plaintiffs beliefs were
Messianic and that Messianic Passover meals conformed to his religious beliefs.

13 — OPINION AND ORDER

Case 2:17-cv-00272-MK Document 99 Filed 09/17/19 Page 14 of 19

Accordingly, Young is entitled to qualified immunity and summary judgment should be
granted on this claim.
2. Religious Apparel
Plaintiff next alleges that defendants substantially burdened his religious beliefs by
denying him a kippah (a headpiece) and a tzit-tzit (a garment), by prohibiting photographs with
religious apparel, and by prohibiting women from wearing head coverings during Jewish
marriage ceremonies. Compl. at 3-5.
a. Kippah
On December 6, 2015, plaintiff asked Young about purchasing a kippah, and in January
2016, Young informed plaintiff that his office had found a blue knit kippah that would be made
available for purchase through the prison commissary. Young Deck

27-28 & Atts. 7-8.

Ultimately, ODOC was unable to contract with the vendor for the blue kippah. Id. ^ 29.
ODOC then promulgated rules mandating that all religious head coverings be white in
color. Id. Tf 30-31. On December 6, 2016, ODOC security managers approved a white kippah for
purchase by inmates. Id.

32 & Att. 9 (showing a white “Kippah Messianic Head Covering”).

Plaintiff maintains that he “tried to purchase this so called ‘Messianic Kippa’ [for] almost
two years now,” and he “still has not yet received any such said Kippa, [and] though he has
complained, no one is being held accountable or fixing the issue by inquiring to the vendor about
updating their address, or finding out why the vendor is not sending the products ordered.” Pl.’s
Resp. at 11 & Exs. at 29-32. Plaintiff does not allege that defendants prohibited him from
obtaining a kippah, and the vendor’s failure to deliver a kippah cannot be attributed to them.
Plaintiff also argues that defendants fail to “explain why Plaintiff cannot receive a white
Bucharian Kippa [white Buchari Kippot $28.00 item # KPT-EY-13183], which is also available
14 — OPINION AND ORDER

Case 2:17-cv-00272-MK Document 99 Filed 09/17/19 Page 15 of 19

through this same approved vendor.” Id. at 11. Plaintiff offers no evidentiary support for this
statement. Regardless, Young found a vendor at plaintiffs request, and ODOC ultimately
approved a white kippah for purchase. Accordingly, defendants did not impose a substantial
burden on plaintiffs religious beliefs.
b. Tzit-tzit
On August 21, 2015, plaintiff asked Young to find a vendor that could provide a tzit-tzit.
Young Decl.

33 & Att. 10. Apparently, an approved vendor had refused to sell plaintiff a tzit-

tzit because plaintiff “was not Jewish, having never gone through an orthodox conversion.” Pl.’s
Resp. Exs. at 25.
On September 15, 2015, Young informed plaintiff that his office had found a vendor and
the vendor’s tzit-tzit would be reviewed for security purposes at an upcoming security meeting.
Young Decl. 34 & Att. 11.
At the meeting, security managers raised concerns about pockets that could conceal
contraband, and the tzit-tzit was not approved. Id.

35 & Att. 12. On October 15, 2015, Young

informed plaintiff about the decision. Id. f 36 & Att. 13.
On December 6, 2015, plaintiff sought further information about a tzit-tzit vendor, and in
January 2016, Young responded that his office had yet to find a vendor for a blue tzit-tzit. Id. at
TH137-38, Atts. 7-8. According to Young, inmate clothing must be blue for security purposes to
identify inmates and prevent escapes. Young Decl. *\\ 38.
On May 11, 2017, security managers approved a tzit-tzit that could be dyed blue by the
vendor. In August 2017, the garment was made available for purchase. Id. U 39 & Att. 14
(showing a “Messianic” “tzitzit”).

15 — OPINION AND ORDER

Case 2:17-cv-00272-MK

Document 99

Filed 09/17/19

Page 16 of 19

Plaintiff fails to show that defendants substantially burdened his religious beliefs. Young
attempted to find an approved tzit-tzit vendor, and ODOC security managers ultimately approved
a tzit-tzit for purchase. Even if ODOC’s delayed approval somehow burdened plaintiff s exercise
of religion, its justification was reasonably related to the legitimate penological interest of
security “by preventing contraband smuggling.” Bull v. City & Cnty. ofSan Francisco, 595 F.3d
964, 977 (9th Cir. 2010).
c. Religious Adornments in Photographs
On June 2, 2015, plaintiff complained that five photographs he took in his housing unit
were “denied” because of “props” in the photographs; plaintiff maintains that those “props” were
religious adornments. Young Deck Id.

22-26 & Att. 6. However, plaintiff complained to Tom

Lemens, EOCI Assistant Superintendent of Security, and alleges no action taken by Young with
respect to the photographs. Id. Accordingly, Young could not have substantially burdened
plaintiffs beliefs and cannot be held personally liable under § 1983. See Taylor v. List, 880 F.2d
1040, 1045 (9th Cir. 1989) (holding that liability under § 1983 arises upon a showing of personal
participation by each defendant). Further, plaintiff fails to establish how the denial of five
photographs constituted a substantial burden.
d. Women’s Head Coverings
Plaintiff also alleges that defendants have “denied our women the right to wear their head
coverings at weddings.” Compl. at 5. However, the materials plaintiff attached to DC-EOCI2016-01-055 referenced another inmate’s fiance and her request to wear a head covering. Young
Deck Att. 2 at 15-18. Plaintiff exhausted no other claim regarding women’s head coverings, and
plaintiff does not have standing to enforce the rights of a fellow inmate.

16 — OPINION AND ORDER

Case 2:17-cv-00272-MK

Document 99

Filed 09/17/19

Page 17 of 19

Further, the record includes no evidence that plaintiffs fiance, or any other woman
associated with plaintiff, requested and was denied permission to wear a religious head covering.
Plaintiff cannot sustain this claim.
3. Kosher Food Items and Drink Containers
Finally, plaintiff contends that the ODOC kosher diet does not include leafy greens, nuts,
or fruit and the items available for purchase do not include kosher meats, cheeses, or vitamins.
Compl. at 3-4; see also Young Deck Att. 2 at 3; Pl.’s Resp. at 1-2.
It is unclear what food items are included in the kosher meal provided to inmates, and
plaintiff does not allege that ODOC’s kosher meals violate the dietary requirements of his
religious beliefs. Rather, it seems that plaintiff simply would like a variety of foods. While
plaintiff purports to cite cases requiring prisons to provide a “wide variety” of kosher food items,
Pl.’s Resp. at 2, 9, those cases neither include such language nor mandate a particular sampling
of kosher food. See Ashelman v. Wawrzaszek, 111 F.3d 674 (9th Cir. 1997) (noting that a
prisoner warden conceded that a “kosher TV-dinner could be supplemented with whole fruits,
vegetables, nuts, and cereals” at minimal cost, but not mandating any particular variety of foods);
Bartlett v. Atencio, Civ. No. 1:17-CV-00191-CWD (D. Idaho 2017) (case settled through an
agreement requiring kosher diets to be provided in Idaho correctional facilities).
Plaintiff is correct that the foods available for purchase by inmates does not include
kosher meats. Marks Deck Att. 1 (ECF No. 94) (canteen list indicating that tuna is the only
kosher “meat” available). However, courts have held that “[prisoners have no right to any
particular quantum of meat in their dietsf,]” even religious diets. Fonseca v. Cal. Dep’t of Corr.
& Rehab., 2015 WL 4172194, at *4 (S.D. Cal. July 10, 2015) (serving fish more often than beef
did not substantially burden inmates’ sincerely held religious beliefs); see also Shoemaker v.
17 — OPINION AND ORDER

Case 2:17-cv-00272-MK

Document 99

Filed 09/17/19

Page 18 of 19

Williams, 2013 WL 528306, at *2 (D. Or. Feb. 11, 2013) (rejecting prisoner’s claim that a meatfree diet infringed on his religious rights when the prisoner did not show that “his religion
requires the consumption of meat”).
Further, plaintiff presents no evidence that the unavailability of kosher meats, cheeses, or
vitamins forces him to engage in conduct contrary to his beliefs. Jones, 791 F.3d at 1031-32
(substantial burden exists where the plaintiff is pressured to modify his behavior and violate his
beliefs); Warsoldier v. Woodford, 418 F.3d 989, 995 (9th Cir. 2005). For example, plaintiff does
not allege that unwanted health effects from the kosher diet requires him to purchase non-kosher
food items. Rather, plaintiff simply complains that defendants are “forcing” him to be a
vegetarian, which is a secular concern rather than a sincerely held religious belief. Pl.’s Resp. at
16. Moreover, there is no evidence in the record that Young personally denied a request to
provide kosher food items. These products are procured by the ODOC food services department
and not by Young or the Office of Religious Services. Suppl. Young Decl. fflf 8-9 (ECF No. 93).
Finally, plaintiff alleges that the drink containers in the “chow hall” are not “clean,” and
he should be allowed to take his kosher drink option (a tea bag) to his housing unit where hot and
cold taps are available. Pl.’s Resp. at 2. Alternatively, plaintiff maintains that defendants must
provide a juice box with kosher meals or install hot and cold water taps in the chow hall to
accommodate his kosher drink requirements. Id.
Plaintiff asserts only a speculative fear of “contamination” and presents no evidence that
available drink containers are not adequately cleaned, or that ODOC’s actions caused him to
modify his behavior in a matter that violated his religious beliefs. Instead, plaintiff asserts that he
must spend his “own money” on drinks from the canteen. Id. This is not a substantial burden on
his religious beliefs. Moreover, plaintiff presents no evidence that Young personally forbade
18 — OPINION AND ORDER

Case 2:17-cv-00272-MK

Document 99

Filed 09/17/19

Page 19 of 19

plaintiff from taking his tea bag to his housing unit due to the drink containers in the chow hall.
Accordingly, plaintiff fails to establish that the available kosher food items or drink containers
imposed a substantial burden on his religious beliefs, and summary judgment should be granted.
CONCLUSION
Defendant’s Motion for Summary Judgment and Supplemental Motion for Summary
Judgment (ECF Nos. 66, 92) are GRANTED, and this case is DISMISSED.
IT IS SO ORDERED.
DATED this 17th day of September 2019.
s/ Mustafa T. Kasubhai
MUSTAFA T. KASUBHAI
United States Magistrate Judge

19 — OPINION AND ORDER

Case 2:17-cv-00272-MK

Document 100

Filed 09/17/19

Supp. E. R.-12

Page 1 of 1

m THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
ERNEST BAKER,
Plaintiff,
2:17-cv-00272-MK
V.
JUDGMENT
(OREGON DEPT. OF CORRECTIONS)
O.D.O.C. et al,
Defendants.
As per the Opinion and Order (ECF No. 99), this action is dismissed.
Dated this 17th day of September 2019.
s/ Mustafa T. Kasubhai_____
MUSTAFA T. KASUBHAI
United States Magistrate Judge

\

